                      OFFICE O F THE INSPECTOR GENERAL
                       CORPORATION FOR NATIONAL AND
                            COMMUNITY SERVICE




                    Summary of Thirty-Seven State Commission
                              Pre-Audit Survey Reports

                           OIG Audit Report Number 01-41
                                      J u n e 6,2001




This report was issued to Corporation management on July 31,2001. Under the laws and
regulations governing audit follow up, the Corporation must make final management
decisions on the report's findings and recommendations no later than January 28,2002, and
complete its corrective actions by July 31,2002. Consequently, the reported findings do not
necessarily represent the final resolution of the issues presented.
                              TABLE OF CONTENTS


Background and Purpose


Summary of Results
      Strengths
      Weaknesses
      Other Matters Noted


Summary of Responses by State Commissions and the Corporation to the
     Pre-Audit Surveys


Summary Tables:


       Table 1: Summary of State Commission Program Year 1999 Current Staffing, Funding,
                   and Subgrantee Information


       Table 2: Summary of Management Controls Systems by State Commission


       Table 3: Analysis of State Commission Findings by Category, Finding, and Frequency


       Table 4: Summary of State Commission Findings by Commission and the Number of
                   Findings in Each Category


       Table 5: Summary of Conditions Reported by State Commission


       Table 6: Single Audit Act Coverage of the State Commissions


Appendix A: Schedule of OIG State Commission Pre-Audit Survey Reports


Appendix B: Pre-Audit Surveys Objectives, Scope and Methodology


Appendix C: The Corporation for National Service's Response to this Summary Report


Appendix D: OIG Comments on Specific Items Noted in the Corporation's Response to
            this Summary Report
                                                                                     -       -



                                                                                     CORPORATION
                                                                                     FOR NATIONAL
Background and Purpose


State commissions play an important role in the oversight of AmeriCorps programs and
expenditures. Currently the Corporation for National Service (Corporation) awards
approximately two-thirds of its AmeriCorps StateINational funds to state commissions. Most
state commissions receive additional funding for Learn and Serve America or other
Corporation-funded initiatives.
The Corporation has indicated that it intends to give them greater responsibility. Such
devolution increases the need for the Corporation's oversight. However, the Corporation
presently lacks a management information system that maintains comprehensive information
on its grants, including those to state commissions and their subgrantees. And, although the
Corporation began state commission administrative reviews in 1999, only 21 such reviews
have been completed to date. Moreover, the Corporation cannot rely on audit coverage under
the Single Audit Act because the Corporation's funding, including the AmeriCorps programs
are, generally, not subject to compliance testing as part of state-wide audits under the Act due
to their size relative to other Federally funded state programs.
Therefore, OIG has initiated a series of pre-audit surveys intended to provide basic information
on the state commissions' operations and funding. The surveys consist of on-site reviews at
the state commissions and generally last one to two weeks. They are designed to provide a
preliminary assessment of the commissions' pre-award and grant selection procedures, fiscal
administration, and monitoring of subgrantees (including AmeriCorps Member activities and
service hour reporting). The surveys are also intended to provide information on the level of
audit coverage that may be afforded by the Single Audit Act requirements. Using this
information, we assess risk and determine the timing, nature and scope of future OIG audit
work.
We agreed with Congressional committee staff to periodically provide a cross-cutting analysis
of the results of the surveys to provide insight on the strengths and weaknesses of the state
commissions. This report summarizes the conditions and other information revealed by the
37 pre-audit surveys listed in Appendix A .


Summary of Results


The state commissions we selected for survey work were intended to be a representative
sample of all state commissions, i.e., including large and small commissions and commissions
that were considered by the Corporation to be well-run and those reputed to be in other
categories. Review of the reports indicates that we achieved the cross section that we were
seeking. Table 1 indicates that we surveyed commissions for which Corporation funding for
program year 1999 ranged from less than $1 million (Delaware, Idaho, Nevada and Wyoming)
to over $10 million (California, Texas and Washington). The number of subgrantees ranged

                                                                                 Inspector General
                                                                                 1201 New York Avenue, NW
                                                                                 Washington, DC 20525
from a low of four (Delaware) to a high of 58 (Florida). Their staffing ranged from 1 FTE
(Alaska, Wyoming) to 26 (Florida).


       Strengths
We concluded that only 1 of the 37 commissions, Tennessee, has established systems that
offered reasonable assurance that pre-award and grant selection procedures, fiscal
administration, and monitoring of subgrantees (including AmeriCorps Member activities and
service hour reporting) were adequate during all program years surveyed. However, 25
commissions have initiated improvements in recent years, 16 of which are due to
implementation of the Web Based Reporting System (WBRS).
Twenty-two of the surveyed commissions, or approximately 60 percent, have established
systems that provide for adequate fiscal administration of Corporation grant funds.
The assessments also revealed that 17 of the 37 commissions have established systems that
provide reasonable assurance that the pre-award and grant selection procedures are adequate.
Most were described as administering an open, competitive process to select national service
subgrantees. However, many of the commissions did not always retain sufficient
documentation to support their grant selection process, in particular conflict of interest forms
signed by individuals reviewing applications.
       Weaknesses
Assessment of the commissions' systems for monitoring subgrantees proved to be the most
problematic area in the pre-audit surveys (as illustrated in Table 3). Of the 37 commissions
reviewed, 30 were found to have inadequate systems for monitoring their subgrantees. Clearly,
more emphasis needs to be placed on the commissions' responsibility for oversight of their
subgrantees. Further, although many of the commissions utilize site visit monitoring checklists
fashioned after a model provided by a Corporation-funded training and technical assistance
organization, the Corporation has not, and refuses to, issue basic guidelines that establish the
minimum requirements for monitoring or to require the use of monitoring checklists in a
structured manner. As a result, the monitoring of subgrantees is left to the discretion of each
commission. The Corporation's refusal to require structured monitoring reviews of
subgrantees is rooted in the premise that it advocates what it characterizes as a "risk based"
approach to monitoring subgrantees, as discussed in Summary of Responses, below.
The pre-audit surveys have demonstrated that this unstructured approach to monitoring
subgrantees has led to (1) erratic and differing levels of monitoring of subgrantees, and (2) a
lack of sufficient documentation being maintained at the commissions to allow us to assess the
extent of the monitoring that was performed.
Over half of the commissions did not consider the adequacy of the applicants' financial systems
in the selection process. And, at one third of the state commissions, we found little or no
evidence that subgrantee audit reports were routinely reviewed by commission staff, eight
commissions did not review the audit reports, and three commissions did not require
submission of subgrantee audit reports.
Finally, although more than half of the 37 commissions had adequate systems for fiscal
administration, we recommended improvements in policies and procedures at most of the
commissions. As noted above, the most frequently reported conditions were related to
subgrantee financial reports. Prior to the implementation of WBRS, many commissions did
not submit their financial status reports (FSRs) in a timely manner, review and/or maintain
subgrantee FSRs, or obtain them from subgrantees in a timely manner. Seventeen
commissions lack evidence of reconciling financial data on FSRs to underlying financial
records.
       Other Matters Noted
Eighteen of the commissions, or slightly less than 50 percent, were operated with an
administrative staff of less than five individuals. We found that the number of administrative
staff positions, as established in grant budgets approved by the Corporation, could not be
correlated with either the amount of Corporation funding and/or the number of subgrantees
or sites. Hence, the level of administrative staffing at the commissions can be described as
erratic. The need for improvement in oversight of subgrantees by commission staff, taken
together with the Corporation's initiatives toward transferring greater responsibility to the
commissions suggests that the Corporation should work with the commissions and determine
whether guidelines should be established for commission staffing.
As noted above, the Web Based Reporting System (WBRS) has resulted in improvements in
the timeliness of submission of information from commissions and subgrantees to the
Corporation. WBRS is currently used to transmit Member enrollment and end-of-term data,
as well as Financial Status Reports to the Corporation from the majority of the state
commissions and selected "National Direct" grantees. Both grantees and their subgrantees
have access to WBRS.
Recent pre-audit surveys found weaknesses in WBRS access controls at 2 of 12 commissions.
Moreover, reviews of the controls performed during the audit of the Corporation's financial
statements revealed that the controls over grantee financial data and Americorps Member
information have not been redesigned to consider electronic submission of data by the new
WBRS system.
Controls over the input and transmission of data via WBRS are critical to ensure the integrity
of the National Service Trust database, and to the Corporation's ability to rely on the financial
data submitted by its grantees as a basis for making grants management decisions. Therefore,
OIG has recommended that the Corporation and the commissions design additional controls
for implementation at the grantee level which consider the paperless environment in which
WBRS operates. These controls should include routine review of error listings generated by
WBRS by someone other than the person inputting data to the system, a spot check of
underlying support for the data submitted via WBRS on a periodic basis, and improved access
controls to WBRS at grantee and subgrantee sites, as appropriate.'



' O1G Audit Report 01-01; Audit of the Corporation for National Service's Fiscal Year 2000 Financial
Statements.
Summary of Responses by State Commissions and the Corporation to the Pre-Audit Surveys


We provided individual draft reports to each state commission surveyed and to the Corporation
and considered their responses when finalizing the reports. Each final report includes the
responses received. In some cases, the state commissions have disagreed with some of the
reported findings, but all of the 37 commissions indicated that they either agreed with, or have
initiated corrective actions in response to other findings and recommendations.
The Corporation responded to 29 of the 37 reports. Because we are scheduling commissions
for audit based on risk and will be performing work over the next several years (rather than
immediately for all commissions), each of our survey reports recommends that the Corporation
follow-up to see that the conditions reported have been effectively corrected. Generally, the
responses have indicated that the Corporation will consider the reports during their
administrative monitoring and oversight reviews to be performed on a three-year cycle. The
Corporation began the administrative reviews in 1999. As of May 2001, 21 administrative
reviews have been completed. The Corporation indicates that an additional 14 reviews are
scheduled for the remainder of fiscal year 2001. The responses also indicated that the
Corporation will request the commissions to report corrective action to them on a semiannual
basis.
We have also urged the Corporation to improve its guidance on monitoring. However, the
Corporation has expressed its disagreement with these recommendations in a number of its
responses to the reports. The disagreement appears to be rooted in the premise that what the
Corporation presently advocates can be characterized as a "risk based" approach to monitoring
subgrantees. The concept of focusing on "risk" in assessing the likelihood of inappropriate
transactions or activities is far from new; it has been used by the auditing profession for many
years and is formally codified in the Statements on Auditing Standards promulgated by the
American Institute of Certified Public Accountants (AICPA), and by the Office of Management
and Budget (OMB) in the 1997 revision to Circular A-133, Audits of States, Local
Governments and Non-Profit Organizations. The difference between the AICPA and OMB
approaches and that of the Corporation is that the former are structured (e.g., where risk is
assessed as "low" such an assessment must be justified by testing of controls) whereas the
latter is totally unstructured and permits the state commissions to monitor their subgrantees in
any manner and to any degree that the individual commission might feel appropriate, without
establishing a rationale supporting the monitoring employed.
The Corporation further justifies its position since it "requires its grantees and subgrantees to
use the OMB A-133 audits as the primary basis for oversight of its awards" on the premise
that "(t)hese audits cover the entire operations of the subgrantee including internal controls and
compliance with laws and regulations. This argument exhibits a lack of understanding of the
                                       "


OMB Circular A-133 audit process, particularly how programs are selected for compliance
testing. The pre-audit surveys have disclosed, and we have advised the Corporation, that, in
most cases, the Corporation grants are not, for various reasons, specifically covered by the
OMB Circular A-133 audits and, consequently, no reliance can be placed on these audits
insofar as compliance with the specific requirements of the Corporations grants are concerned.
In fact, as illustrated in Table 6, we found that only 12 of the 37 commissions have been
audited as separate entities or tested as major programs as defined by OMB Circular A-133.
More importantly, the results of the surveys indicate that the current monitoring process does
not work well and needs improvement.
This report includes six tables that summarize information gained and the findings resulting
from the surveys. The tables were compiled from a database maintained under contract to OIG
by the independent auditing firm, Leonard G. Birnbaum, LLP and referenced to the individual
reports from which the data was derived. Appendix A lists the 37 pre-audit survey reports
which are available from OIG upon request. Appendix B describes the objectives, scope and
methodology for the pre-audit surveys. The Corporation's response to this Summary Report
is included as Appendix C.
In its response, the Corporation points out areas where Corporation management disagrees
with this summary report stating that "...State Commissions are performing their roles and
responsibilities in a far more exemplary manner than is described in this summary...".
Unfortunately, this conclusory response provides no examples or other evidence to support this
position. Nonetheless, it is possible to view the state commissions as committed to improving
their performance. The surveys have revealed, and this report acknowledges, that some state
commissions have initiated financial management improvements in recent years. However,
these pre-audit surveys are being performed to gain information to plan future audit work that
must cover most of the years that the state commissions have been in operation. In doing so,
we cannot ignore the risk that Federal funds may have been misspent, brush aside the
commissions' past shortcomings, or restart the audit clock in 1999. Further analysis of the
comments contained in the Corporation's response is included in Appendix D.




Luke S . Jordan
Inspector General

June 6, 2001
                            Office of Inspector General
                          Corporation for National Service
                      Pre-Audit Surveys of State Commissions

                      Table 1: Summary of State Commission
          PY 1999 Current Staffing, Funding and Subgrantee Information




                                                    PDAT (Not Available)
                                                    Administration (NIA)




                                                    Promise Fellows (Not Available)
                                                    PDAT (Not Available)
                                                    Administration (NIA)
                                                    State Disability (Not Available)


                                                    Learn and Serve (1)

                                                    PDAT (Not Available)
                                                    America Reads (1)
                                                    Administration (NIA)




                                                    Administration (NIA)




                                                     Administration (NIA)
                                                     Promise Fellowship (Not Available:

NIA: Not Applicable
                            Office of Inspector General
                          Corporation for National Service
                      Pre-Audit Surveys of State Commissions

                    Table 1: Summary of State Commission
           PY 1999 Current Staffing, Funding and Subgrantee Information




                                                    AmeriCorps (35)
                                                    Learn and-serve (23)
                                                    PDAT (Not Available)
                                                    Other (Not Available)



t-PIdaho                                            AmeriCorps (4)
                                                    PDAT (Not Available)
                                                    Administration (NIA)
                                                    Promise Fellowship (Not Available)

                                                    AmeriCorps (18)
                                                    Learn and Serve (7)
                                                    PDAT (Not Available)
                                                    Other (12)

                                                    AmeriCorps (8)
                                                    PDAT (Not Available)
                                                    Administration (NIA)

                                                    AmeriCorps (7)
                                                    Learn and Serve (29)
                                                    PDAT (Not Available)
                                                    Promise Fellows (5)
                                                    Administration (NIA)

                                                    AmeriCorps (10)
                                                    Learn and Serve (5)
                                                    PDAT (Not Available)
                                                    Administration (NIA)
                                                    Promise Fellowship (Not Available)

                                                    AmeriCorps (5)
                                                    Administration (NIA)
                                                    PDAT (Not Available)
                                                    America Reads (1)
                                                    Promise Fellows (1)
              I




NIA: Not Applicable
                               Office of Inspector General
                             Corporation for National Service
                         Pre-Audit Surveys of State Commissions

                        Table 1: Summary of State Commission
               PY 1999 Current Staffing, Funding and Subgrantee Information




  Maryland                                              AmeriCorps (12)
                                                        Learn and Serve (3)
                                                        Disabilities (1)
                                                        America Reads (1)
                                                        Promise Fellows (1)
                                                        PDAT (Not Available)
                                                        Administration (NIA)

Massachusetts                                           AmeriCorps (22)
                                                        Learn and Serve (4)
                                                        PDAT (Not Available)
                                                        Administration (NIA)
                                                        America Reads (1)
                                                        Promise Fellowship (Not Available)

  Michigan                                              AmeriCorps (20)
                                                        Learn and Serve (10)
                                                        PDAT (Not Available)
                                                        Administration (NIA)
                                                        Promise Fellowship (7)

 Minnesota                                              AmeriCorps (1 1)
                                                        Learn and Serve (Not Available)
                                                        PDAT (Not Available)
                                                        Educational (1)
                                                        Promise Fellows (1)

 Mississippi                                            AmeriCorps (9)
                                                        Learn and Serve (5)
                                                        Disability (1)
                                                        America Reads (1)
                                                        Promise Fellows (10)
                                                        PDAT (Not Available)
                                                        Administration (NIA)




NIA: Not Applicable
                                 Office of Inspector General
                               Corporation for National Service
                           Pre-Audit Surveys of State Commissions

                        Table 1: Summary of State Commission
               PY 1999 Current Staffing, Funding and Subgrantee Information




                                                         Learn and Serve (Not Available)
                                                         Promise Fellows (4)
                                                         PDAT (Not Available)




I
      Nevada                                  $223       AmeriCorps (1)
                                                         PDAT (Not Available)
                                                         Promise Fellows (2)
                                                         Administration (NIA)




I-
 New Hampshire
                                                         Learn and Serve (Not Available)
                                                         PDAT (Not Available)
                                                         Educational (Not Available)

     New Jersey        4
                                                         America Reads (Not Available)
                                                         PDAT (Not Available)
                                                         Administration (NIA)
                                                         Promise Fellowship (Not Available)




7-   New Mexico                                $944      AmeriCorps (5)
                                                         Learn and Serve (Not Available)
                                                         PDAT (Not Available)
                                                         Other (Not Available)




1North Carolina                               $2,586     ArneriCorps (10)
                                                         Learn and Serve (14)
                                                         PDAT (Not Available)
                                                         Administration (NIA)
                                                         Promise Fellowship (Not Available)




-I
        Ohio
                                                          Learn and Serve (8)
                                                          PDAT (Not Available)
                                                          Other (27)


     NIA: Not Applicable
                               Office of Inspector General
                             Corporation for National Service
                         Pre-Audit Surveys of State Commissions

                      Table 1: Summary of State Commission
             PY 1999 Current Staffing, Funding and Subgrantee Information




                                                       Learn and Serve (10)
                                                       PDAT (Not Available)
                                                       Other (2)

                                                       AmeriCorps (7)
                                                       Learn and Serve (14)
                                                       PDAT (Not Available)
                                                       Administration (NIA)
                                                       Promise Fellowship (1)

                                                       AmeriCorps(7)
                                                       PDAT (Not Available)
                                                       Administration (NIA)

 Tennessee           5         $3,848       $3,476     AmeriCorps (15)
                                                       Learn and Serve (15)
                                                       PDAT (14)
                                                       Miscellaneous (5)
                                                       Administration (3)

   Texas             22        $12,353     $1 1,096    AmeriCorps (25)
                                                       Educational (5)
                                                       Learn and Serve (7)
                                                       Promise Fellows (7)
                                                       America Reads (2)
                                                       PDAT (Not Available)
                                                       Administration (NIA)




NIA: Not Applicable
                             Office of Inspector General
                           Corporation for National Service
                       Pre-Audit Surveys of State Commissions

                      Table 1: Summary of State Commission
             PY 1999 Current Staffing, Funding and Subgrantee Information




                                                      Learn and-serve (12)
                                                      Educational (4)
                                                      PDAT (Not Available)
                                                      Promise Fellows (1)
                                                      Administration (NIA)

  Virginia                                            AmeriCorps (7)
                                                      Learn and Serve (Not Available)
                                                      PDAT (Not Available)
                                                      Other (Not Available)

Washington                                            AmeriCorps (10)
                                                      Learn and Serve (1)
                                                      PDAT (Not Available)
                                                      Administration (NIA)




r
                                                      Miscellaneous (5)

West Virginia                                         AmeriCorps (8)
                                                      Learn and Serve (Not Available)
                                                      PDAT (Not Available)




r
                                                      Other (Not Available)

 Wisconsin                                            AmeriCorps (7)
                                                      Learn and Serve (12)
                                                      PDAT (Not Available)




r
                                                      Administration (NIA)

 Wyoming                                              AmeriCorps (4)
                                                      Learn and Serve (6)
                                                      PDAT (Not Available)
                                                      Other (Not Available)




NIA: Not Applicable
                        Office of Inspector General
                      Corporation for National Service
                  Pre-Audit Surveys of State Commissions

             Table 2: Adequate Systems of Management Controls
                           By State Commissions




Alabama

Alaska                     J
California                 J                J
Colorado




Maryland                    I,

Massachusetts

Michigan

Minnesota

Mississippi                 ./               J
Missouri


     J - Adequate
                                Office of Inspector General
                              Corporation for National Service
                          Pre-Audit Surveys of State Commissions

                    Table 2: Adequate Systems of Management Controls
                                  By State Commissions




        Nevada                                      J                  J
        New Hampshire                               4
        New Jersey                 J                ./

/       New Mexico

        North Carolina             J
        Ohio                                                           J
        Oregon

        Pennsylvania               J                4
        Rhode Island               4                J
    I South Carolina       I
        Tennessee                  J                J                  ./
        Texas                                       4
    I   Vermont
                           I                I
        Virginia                                     I,
        Washington                  J
        West Virginia               J                J
        Wisconsin                   J                J




           J - Adequate
                              Office of Inspector General
                            Corporation for National Service
                        Pre-Audit Surveys of State Commissions

                   Table 3: Analysis of State Commissions Findings
                  By Category, Finding and Frequency of Occurrence
                     (All Findings for the 37 State Commissions)




              4dequacy of applicants' financial systems not
Grant Award
              :onsidered in the selection process

              Zonflict of interest forms not maintained

              Documentation supporting grant making decisions not
              ivailable in all cases

              Documentation in support of grantee application
              rejections not available for review

              Inadequate documentation to support subgrantee
              selection process

              Documentation supporting the selection review process
              is inconsistent and incomplete

              Limited advertising of funding availability

              Documentation of advertisements for availability of
              funds not maintained

              No written policies and procedures to ensure consistent
              communication to selection officials for previously
              funded applicants
                                                                        2   1   Gli



              Subgrantee selection procedures do not identify data to
              be provided by previously funded applicants

              Lack of written grievance procedures

              No public advertising of program funds

              Availability of 1998 program year funds not advertised
              - reasons not documented




              No procedures to determine if subgrantees have been
              suspended or disbarred by the Federal government


              Lack of formal procedures of maintaining conflict of
              interest forms
                                 Office of Inspector General
                               Corporation for National Service
                           Pre-Audit Surveys of State Commissions

                      Table 3: Analysis of State Commissions Findings
                     By Category, Finding and Frequency of Occurrence
                        (All Findings for the 37 State Commissions)




   Fiscal        FSRs submitted untimely or unable to determine
Administration   submission date

                 Lack of evidence of FSR and matching reconciliation
                 review

                 All required FSRs were not maintained andor portions
                 missing from others

                 Documentation supporting expenditures missing


                 No written procedures for review of matching
                 requirements


                 Lack of procedures to determine the accuracy of
                 information processed through the state's financial
                 systems


                 No support for review of subgrantee FSRs and no
                 comparison of FSRs to accounting systems andlor
                 documentation during site visits

                 Funds not tracked using budget line items

                 Inadequate access into WBRS

                 Lack of control procedures over maintenance of
                 equipment purchases

                 Lack of review of matching and earmarking
                 requirements

                 Inadequate documentation to support Commission's in-
                 kind match amount
                                 Office of Inspector General
                               Corporation for National Service
                           Pre-Audit Surveys of State Commissions

                      Table 3: Analysis of State Commissions Findings
                     By Category, Finding and Frequency of Occurrence
                        (All Findings for the 37 State Commissions)




   Fiscal        Learn and Serve FSRs prepared on a cash basis
Administration
                 Lack of review of subgrantees' expense reimbursement
                 reports

                 Lack of comprehensive formal policies and procedures
                 with fiscal agent, DCCWD

                 Lack of prohibited activities training for members

                 Inadequate description on timesheets for program
                 service performed

                 Computer systems back up procedures are not being
                 performed

                 Web based reporting system is not being used to
                 produce FSRs

                 Inadequate disbursement of funds to subgrantees

                 Inadequate procedures in place to ensure timely
                 drawdown of Federal funds

                 Lack of procedures over disbursements

                 Lack of commission level records and supervisory
                 review

                 The commission uses their drawdown requests to
                 compile FSRs submitted to the Corporation, therefore,
                 FSRs are not compiled based on expenditures report

                 Lacks of documentation of financial and grant
                 management procedures and controls
                             Office of Inspector General
                           Corporation for National Service
                       Pre-Audit Surveys of State Commissions

                  Table 3: Analysis of State Commissions Findings
                 By Category, Finding and Frequency of Occurrence
                    (All Findings for the 37 State Commissions)




Monitoring
             Monitoring system needs improvement; Site visit
             documentation missing
                                                                      1   19   /       M6


             Lack of documentation of review of subgrantee OMB
                                                                          12           M13
             A- 133 or other audit reports

             No review of OMB A- 133 audit reports                        8            MI0


             No written procedures for follow-up on deficiencies at
             subgrantees                                              1        IM2
             No requirement for submission of OMB A- 133 audit
                                                                          3            M9
             reports

             No written procedures for monitoring subgrantees
                                                                      I        IM1
             Not all subgrantee OMB A-133 audit reports were
             obtained
                                                                      1   2            M12


             Information from Member surveys is not documented
             and maintained
                                                                               1       Mli


             Monitoring checklist not documented for specific
             Member files and expense items reviewed

             No procedures to determine if subgrantees are
             performing prohibited activities
                                                                      I            I   M22

             No written procedures to ensure subgrantees correct
             deficiencies                                             1            IM4
             Subgrantee OMB A-133 or other audit reports were not
                                                                          1            MI1
             maintained in files

             Unable to determine if progress reports was received
             timely
                             Office of Inspector General
                           Corporation for National Service
                       Pre-Audit Surveys of State Commissions

                  Table 3: Analysis of State Commissions Findings
                 By Category, Finding and Frequency of Occurrence
                    (All Findings for the 37 State Commissions)



                                    Finding                      Frequency       Finding
                                                                                  No.
                                                                             I


Monitoring   Procedures to select Members for testing not
             documented                                      I               I    M20      I
             No procedures to determine if Members' living
                                                                     1            M23
             allowances are correctly paid

             Labor hour certification not maintained
                                                             1               I    M26      I
                              Office of Inspector General
                            Corporation for National Service
                        Pre-Audit Surveys of State Commissions

                   Table 3: Analysis of State Commissions Findings
                  By Category, Finding and Frequency of Occurrence
                     (All Findings for the 37 State Commissions)



                                     Finding                                 Frequency   Finding
                                                                                          No.
              Monitoring system needs improvement; Site visit
Site Visits
              documentation missing

              No evidence of review of subgrantee financial systems,
              Member timesheets, expense documentation during site
              visits

              No comprehensive schedule for planned and actual site
              visits is maintained


              Sampled items are not documented on site visit report


              Lack of timely communication and follow-up on
              deficiencies found during site visits

              Subgrantee financial systems and expense
              documentation not reviewed during site visits

              Subgrantee progress reports not formally verified during
              site visits
                                                                         1       2        Mll


              Actual dates of site visits not documented                         1        M24

              Procedures for Learn and Serve subgrantees do not
              include site visits or submission of written feedback on           1        M25
              quarterly progress reports

              Inadequate procedures for monitoring subgrantee
                                                                                 1         M27
              documentation during site visits

              Inadequate review of performance measures and
              program results during site visits
                                     Office of Inspector General
                                   Corporation for National Service
                               Pre-Audit Surveys of State Commissions

                       Table 4: Summary of State Commissions Findings
                    By Commission and Number of Findings in Each Category




Zonnecticut                               2,3                        3                 5                4

Delaware                                  2,3                        5                 4                2




>
Florida                                                              2                                   1

Idaho                                      2                                           2                2




Kansas

Kentucky                                   4                         4                 3                 2

Maine                                      2                                            3                2

Maryland                                   2                                            2                1

Massachusetts                              2                         2                  4                2

Michigan                                  2,3                        2                  4                1

Minnesota

Mississippi                               1, 3                                          1                1

1.   The Commission's response agreed with the findings and recommendations in the pre-audit survey report.
2. The Commission disagreed in whole or in part with the findings and recommendations in the pre-audit
   survey report.
3. The Commission's response indicated that it initiated or planned to initiate corrective action in response to
   the findings and recommendations in the pre-audit survey report.
4. The Commission's response did not indicate that it agreed or disagreed with the findings in the pre-audit
   survey report.
                                     Office of Inspector General
                                   Corporation for National Service
                               Pre-Audit Surveys of State Commissions

                       Table 4: Summary of State Commissions Findings
                    By Commission and Number of Findings in Each Category




Missouri                                  1, 3                      3                  4                6

Nevada                                     1                        4                  2                 1

New Hampshire                             2,3                       5                  2                7

New Jersey                                2, 3                       1                 1                3

New Mexico                                1,3                        1                 2                 1

North Carolina                            2,3                        3                 3                3

Ohio                                      2,3                        3                 2                7

Oregon                                    1,3                        2                 8                3

Pennsylvania                              1, 3                                         2                4

Rhode Island                               2                                           2                 2

South Carolina
                           I
Tennessee                                  1                         1                  1

Texas                                     1,3                        3                  2                1

Vermont                                   2, 3                       1                  7                3

Virginia                            Did not respond                  2                                   2

Washington                                2, 3                       1                  3                2

West Virginia                             2,3                                           1                2

Wisconsin                                  2                         3                  3                2

Wyoming                                   1,3                        1                  2                4
1. The Commission's response agreed with the findings and recommendations in the pre-audit survey report.
2. The Commission disagreed in whole or in part with the findings and recommendations in the pre-audit
   survey report.
3. The Commission's response indicated that it initiated or planned to initiate corrective action in response to
   the findings and recommendations in the pre-audit survey report.
4. The Commission's response did not indicate that it agreed or disagreed with the findings in the pre-audit
   survey report.
                               Office of Inspector General
                             Corporation for National Service
                         Pre-Audit Surveys of State Commissions

                        Table 5 : Summary of Conditions Reported
                                   By State Commission




                        hadequate documentation to support subgrantee selection process          G1

                        Documentation supporting grant making decisions not available in all     G2
                        :ases

                        Adequacy of applicants' financial systems not considered in the
                                                                                                 G4
                        selection process

                        Limited advertising of funding availability                              G6

                        Conflict of interest forms not maintained                                G9




i------
                        Subgrantee selection procedures do not identify data to be provided by
                        previously funded applicants

                        Financial Status Reports submitted untimely or unable to determine
Fiscal Administration
                        submission date

                        Lack of evidence of FSR and matching reconciliation review               F4

                        No written procedures for review of state matching requirements          F6

                        Lack of prohibited activities training for members                       F14

                        Lack of procedures over disbursements                                    F22

                        Lack of Commission level records and supervisory review                  F23




                        Monitoring system needs improvement; Site visits documentation           M6
                        inadequate
                        -



                        Labor hour certification not maintained

                        Inadequate procedure for monitoring subgrantee documentation during      M27
                        site visits
                               Office of Inspector General
                             Corporation for National Service
                         Pre-Audit Surveys of State Commissions

                        Table 5: Summary of Conditions Reported
                                  By State Commission




                        Documentation supporting grant making decisions not available in all
   Grant Award          cases

                        Adequacy of applicants' financial systems not considered in the
                        selection process
                                                                                               I


                        Conflict of interest forms not maintained                                  G9

Fiscal Administration
                        Financial Status Reports submitted untimely or unable to determine
                        submission date                                                        I   F2

                        Lack of evidence of FSR and matching reconciliation review                 F4

                        The Commission uses their drawdown requests to compile FSRs
                        submitted to the Corporation, therefore, FSRs are not compiled based       F24
                        on expenditures report

                        Monitoring system needs improvement; Site visit documentation
     Monitoring         missing                                                                    M6
     Site Visits
                        No review of OMB A- 133 audit reports                                      M10
                                   Office of Inspector General
                                 Corporation for National Service
                             Pre-Audit Surveys of State Commissions

                            Table 5: Summary of Conditions Reported
                                      By State Commission




                            Inadequate documentation to support subgrantee selection process                G1
    Grant Award
                            Adequacy of applicants' financial systems not considered in the                 G4
                            selection process

Fiscal Administration       FSRs submitted untimely or unable to determine submission date                  F2

                            All required FSRs were not maintained andlor portions missing from              F3
                            others

                        1   Lack of evidence of FSR and matching reconciliation review
                                                                                                    I       F4
                            Lack of procedures to determine the accuracy of information processed           F1
                            through the state's financial systems

     Monitoring             No written procedures for follow-up on deficiencies at subgrantees              M2
     Site Visits
                            Subgrantee financial systems and expense documentation not reviewed             M7
                            during site visits
                            No evidence of review of subgrantee financial systems, member                   M8
                            timesheets, expense documentation during site visits

                        I No adequate review of OMB A- 133 audit reports                                1   MlO
                                 Office of Inspector General
                               Corporation for National Service
                           Pre-Audit Surveys of State Commissions

                          Table 5: Summary of Conditions Reported
                                    By State Commission




    Grant Award
                         Documentation supporting grant making decisions not available in all
                         cases

                         Adequacy of applicants' financial systems not considered in the
                                                                                                I   G2     1
                                                                                                    G4
                         selection process

                         Lack of written grievance procedures                                       G15

Fiscal Administration   I Lack of evidence of FSR and matching reconciliation review            I   F4     I
                         Monitoring system needs improvement; Site visit documentation
    Monitoring                                                                                      M6
                         missing
    Site Visits
                         Lack of adequate documentation of review of subgrantee OMB A- 133          M 13
                                Office of Inspector General
                              Corporation for National Service
                          Pre-Audit Surveys of State Commissions

                         Table 5: Summary of Conditions Reported
                                   By State Commission




                        locumentation supporting grant making decisions not available in all       G2
   Grant Award          :ases

                        9dequacy of applicants' financial systems not considered in the            G4
                        ;election process

                        Zonflict of interest forms not maintained                                  G9

Fiscal Administration
                        Financial Status Reports submitted untimely or unable to determine
                        jubmission date

                        411 required FSRs were not maintained and/or portions missing from
                                                                                               I   F2

                                                                                                   F3
                        3thers

                        Lack of evidence of FSR and matching reconciliation review

                        Web based reporting system is not being used to produce FSRs

                        Lacks of documentation of financial and grant management procedures        F25
                        and controls

     Monitoring
     Site Visits
                        No adequate written procedures for follow-up on deficiencies at
                        subgrantees

                        Monitoring system needs improvement; Site visit documentation
                                                                                               I   M2

                                                                                                   M6
                        missing

                        No evidence of review of subgrantee financial systems, member              M8
                        timesheets, expense documentation during site visits
                                 Office of Inspector General
                               Corporation for National Service
                           Pre-Audit Surveys of State Commissions

                          Table 5: Summary of Conditions Reported
                                    By State Commission




Grant Award Process     Inadequate documentation to support subgrantee selection process

                        Adequacy of applicants' financial systems not considered in the
                        selection process

                        Availability of 1998 program year funds not advertised - reasons not
                        documented

                        Conflict of interest forms not maintained

                        Documentation in support of the pre-1998 grantee application
                        rejections not available for review


Fiscal Administration   No support for review of subgrantee FSRs and no comparison of
                        FSR's to accounting systems and/or documentation during site visits

                        Fourteen FSRs submitted untimely or late and unable to determine
                        submission date of four others

                        All required FSRs were not maintained and portions missing from
                        others from 1995 - 1997

                        Administrative and Program Development and Training funds not
                        tracked using budget line items

                        Monitoring system needs improvement; Information excluded from
     Monitoring
                        site visit documentation

                        Lack of documentation of review of subgrantee OMB A- 133 or other
                        audit reports
                         Office of Inspector General
                       Corporation for National Service
                   Pre-Audit Surveys of State Commissions

                  Table 5: Summary of Conditions Reported
                            By State Commission




                  Documentation supporting grant making decisions not available in all
    Grant Award   cases

                  Conflict of interest forms not maintained                              G9

    Monitoring    No evidence of review of subgrantee financial systems, member          M8
    Site Visits   timesheets, expense documentation during site visits
1
                               Office of Inspector General
                             Corporation for National Service
                         Pre-Audit Surveys of State Commissions

                        Table 5: Summary of Conditions Reported
                                  By State Commission




Fiscal Administration
                        Financial Status Reports submitted untimely or unable to determine
                        submission date
                                                                                             I       F2

                        Lack of evidence of FSR and matching reconciliation review                   F4

                        Monitoring system needs improvement; Site visit documentation                M6
     Monitoring
                        missing
     Site Visits
                        Lack of documentation of review of OMB Circular A- 133 reports or        M13
                                                                                                 -   -

                        other audit reports from subgrantees
                                   Office of Inspector General
                                 Corporation for National Service
                             Pre-Audit Surveys of State Commissions

                            Table 5: Summary of Conditions Reported
                                      By State Commission




Grant Award Process     1 No public advertising of program funds                                 I   G5
                            Documentation in support of the pre- 1998 grantee application
                            rejections not available for review


Fiscal Administration
                        1   FSRs submitted untimely or late and unable to determine submission
                            date

                            Lack of review of subgrantees' expense reimbursement reports

                            No comprehensive schedule for planned and actual site visits is
    Monitoring
                            maintained

                            Not all subgrantee OMB A- 133 audit reports were obtained                M 12

                            Information from Member surveys is not documented and maintained
                                                                                                 I          I
                                 Office of lnspector General
                               Corporation for National Service
                           Pre-Audit Surveys of State Commissions

                          Table 5 : Summary of Conditions Reported
                                     By State Commission




Grant Award Process       Conflict of interest forms not maintained                           G9


                                                                                          I        I
                      I                                                                   I

                          Monitoring system needs improvement; Site visit documentation
    Monitoring
                          missing                                                             M6
                             Office of Inspector General
                           Corporation for National Service
                       Pre-Audit Surveys of State Commissions

                      Table 5: Summary of Conditions Reported
                                By State Commission




    Grant Award   I Lack of formal procedures of maintaining conflict of interest forms 1         I
I   Monitoring
    Site Visits
                  /   Sampled items are not documented in site visit report
                                                                                        I   M21   I
                               Office of Inspector General
                             Corporation for National Service
                         Pre-Audit Surveys of State Commissions

                        Table 5: Summary of Conditions Reported
                                  By State Commission




   Grant Award          Documentation supporting grant making decisions not available in all       G2
                        cases

                        Adequacy of applicants' financial systems not considered in the            G4
                        selection process
                        Documentation of advertisements for availability of funds not              G7
                        maintained

                        Conflict of interest forms not maintained                                  G9


Fiscal Adrmnistration   FSRs submitted untimely or late and unable to determine submission         F2
                        date

                        All required FSRs were not maintained and portions missing from            F3
                        others

                        Lack of evidence of FSR and matching reconciliation review
                                                                                               I   F4    1
     Monitoring         Monitoring system needs improvement; Information excluded from
                        site visit documentation
                                                                                               I   M6    1
                        Lack of documentation of review of subgrantee OMB A-1 33 or other          M13
                        audit reports
                               Office of Inspector General
                             Corporation for National Service
                         Pre-Audit Surveys of State Commissions

                        Table 5: Summary of Conditions Reported
                                  By State Commission




                        Financial Status Reports submitted untimely or unable to determine
Fiscal Administration   submission date

                        Specific documentation supporting expenditures are inadequate        1   F10

                        Inadequate access into WBRS                                          I   F15

                        Lack of documentation of review of subgrantee OMB A- 133 or other
     Monitoring         reports
     Site Visits
                        Inadequate review of performance measures and program results
                        during site visits
                               Office of Inspector General
                             Corporation for National Service
                         Pre-Audit Surveys of State Commissions

                        Table 5: Summary of Conditions Reported
                                  By State Commission




Fiscal Administration   Prior to program year 1998-1999, Financial Status Reports submitted
                        untimely or unable to determine submission date

                        Prior to program year 1998-1999, lack of evidence of FSR and
                        matching reconciliation review

     Monitoring         No evidence of review of subgrantee financial systems, member
                        timesheets, and expense documentation because reviewer does not
                        identify documents tested during site visits
                               Office of Inspector General
                             Corporation for National Service
                         Pre-Audit Surveys of State Commissions

                        Table 5 : Summary of Conditions Reported
                                   By State Commission




    Grant Award
                        Conflict of interest forms not maintained                            1   G9     1
                        Documentation in support of grantee application rejections not
                        available for review

                        Financial Status Reports submitted untimely or unable to determine
Fiscal Administration   submission date

                        All required FSRs were not maintained and/or portions missing from
                        others prior to program year 1998-1999

                        Lack of control procedures over maintenance of equipment purchases   1   F 16   1
                        Computer systems back up procedures are not being performed              F18

                        Monitoring system needs improvement; Site visit documentation            M6
     Monitoring
                        missing
     Site Visits
                        Lack of documentation of review of subgrantee OMB A- 133                 M13
                               Office of Inspector General
                             Corporation for National Service
                         Pre-Audit Surveys of State Commissions

                        Table 5: Summary of Conditions Reported
                                  By State Commission




                        Documentation supporting grant making decisions not available in all   G2
   Grant Award          cases

                        Adequacy of applicants' financial systems not considered in the        G4
                        selection process

                        Financial Status Reports submitted untimely or unable to determine
Fiscal Administration
                        submission date

                        All required FSRs were not maintained andlor portions missing from
                        others

                        Lack of evidence of FSR and matching reconciliation review

                        Documentation supporting expenditures missing

     Monitoring         Monitoring system needs improvement; Site visits documentation         M6
     Site Visits        missing
                                 Office of Inspector General
                               Corporation for National Service
                           Pre-Audit Surveys of State Commissions

                           Table 5: Summary of Conditions Reported
                                     By State Commission




Grant Award Process     I Inadequate documentation to support subgrantee selection process       I          I
                         Adequacy of applicants' financial systems not considered in the
                         selection process                                                       I   G4     I
                         No written policies and procedures to ensure consistent communication       G12
                         to selection officials for previously funded applicants

Fiscal Administration   I No written procedures for review of matching requirements              I   F6     I
    Monitoring           No written procedures for monitoring subgrantees                            M1

                        /No written procedures for follow-up on deficiencies at subgrantees      I   MZ     1
                         Monitoring checklist not documented for specific Member files and           M19
                         expense items reviewed

                         Sample size determination not documented                                    M2 1
                               Office of Inspector General
                             Corporation for National Service
                         Pre-Audit Surveys of State Commissions

                        Table 5: Summary of Conditions Reported
                                  By State Commission




Fiscal Administration   Inadequate description of timesheets for program service performed   F17

    Monitoring          Lack of documentation of review of subgrantee OMB A- 133             M13
                                Office of Inspector General
                              Corporation for National Service
                          Pre-Audit Surveys of State Commissions

                         Table 5: Summary of Conditions Reported
                                   By State Commission




Grant Award Process     Adequacy of applicants' financial systems not considered in the               G4
                        selection process

                        Conflict of interest forms not maintained                                     G9

                        No procedures to determine if subgrantees have been suspended or
                        disbarred by the Federal government



r------
Fiscal Administration
                        FSRs submitted untimely or late or unable to determine submission
                        date

                        All required FSRs were not maintained and/or portions missing from
                        others
                                                                                                      F3


                        Lack of review of matching and earmarking requirements                        F5

                        Documentation supporting expenditures missing

                        No written procedures for follow-up on deficiencies at subgrantees
                                                                                              I       M2
                        No comprehensive schedule for planned and actual site visits is
                        maintained

                        Subgrantee financial systems and expense documentation not reviewed
                        during site visits

                        No requirement for submission of OMB A- 133 audit reports
                                                                                              i       M7



                        No review of OMB A- 133 audit reports                                     I   MI0

                        Information from Member surveys is not documented and maintained              M17
                               Office of Inspector General
                             Corporation for National Service
                         Pre-Audit Surveys of State Commissions

                         Table 5: Summary of Conditions Reported
                                   By State Commission




                        Documentation supporting the selection review process is inconsistent
   Grant Award
                        and incomplete

                        Adequacy of applicants' financial systems not considered in the
                        selection process

                        Documentation in support of grantee application rejections not
                                                                                                GI0
                        available for review

                        Lack of written grievance procedures                                    G15

                        Financial Status Reports submitted untimely or unable to determine
Fiscal Administration
                        submission date

                        Documentation supporting expenditures missing
    Monitoring          No written procedures for monitoring subgrantees
                               Office of Inspector General
                             Corporation for National Service
                         Pre-Audit Surveys of State Commissions

                        Table 5: Summary of Conditions Reported
                                  By State Commission




Grant Award Process     Adequacy of applicants' financial systems not considered in the
                        selection process

                        Limited advertising of funding availability

                        Conflict of interest forms not maintained

                        Documentation in support of grantee application rejections not
                        available for review

                        No written policies and procedures to ensure consistent communication
                        to selection officials for previously funded applicants


Fiscal Administration   FSRs submitted untimely or late or unable to determine submission
                        date

                        Lack of evidence of FSR and matching reconciliation review


    Monitoring          No written procedures for follow-up on deficiencies at subgrantees

                        No comprehensive schedule for planned and actual site visits is
                        maintained

                        No evidence of review of subgrantee financial systems, Member
                        timesheets, expense documentation during site visits

                        No requirement for submission of OMB A- 133 audit reports

                        No review of OMB A- 133 audit reports

                        No procedures to determine if subgrantees are performing prohibited
                        activities

                        No procedures to determine if Member's living allowances are
                        correctly paid
                                  Office of Inspector General
                                Corporation for National Service
                            Pre-Audit Surveys of State Commissions

                            Table 5: Summary of Conditions Reported
                                      By State Commission




                            Adequacy of applicants' financial systems not considered in the
Grant Award Process
                            selection process

Fiscal Administration
                        1   FSRs submitted untimely or late or unable to determine submission
                            date                                                                I   F2    I
                            Monitoring system needs improvement; Site visit documentation           M6
    Monitoring              missing

                            No review of OMB A- 133 audit reports                                   MI0
                                                                                                          1

                            Subgrantee OMB A- 133 or other audit reports not maintained             MI1
                                     Office of Inspector General
                                   Corporation for National Service
                               Pre-Audit Surveys of State Commissions

                              Table 5: Summary of Conditions Reported
                                        By State Commission




        Grant Award          Conflict of interest forms not maintained                                G9


I   Fiscal Administration
                             Financial Status Reports submitted untimely or unable to determine
                             submission date
                                                                                                  I   F2   1
                            I Lack of evidence of FSR and matching reconciliation review          I   F4   /
         Monitoring          Monitoring system needs improvement; Site visit documentation
         Site Visits         missing
                              Office of Inspector General
                            Corporation for National Service
                        Pre-Audit Surveys of State Commissions

                        Table 5: Summary of Conditions Reported
                                  By State Commission




                        Inadequate documentation to support subgrantee selection process          G1
Grant Award Process

                        Adequacy of applicants' financial systems not considered in the           G4
                        selection process

                        Documentation of ads for availability of funds not maintained
                                                                                              1   G7

Fiscal Administration   No support for review of subgrantee FSRs and no comparison of FSRs        F1
                        to accounting systems andlor documentation during site visit

                        FSRs submitted untimely or late or unable to determine submission
                        date




     Monitoring
                        All required FSRs were not maintained and/ or portions missing from
                        others

                        Monitoring system needs improvement; Site visit documentation
                                                                                              I   M6
                        missing

                        Lack of documentation of review of subgrantee OMB A- 133 or other
                        audit reports

                        Actual dates of site visits not documented
                               Office of Inspector General
                             Corporation for National Service
                         Pre-Audit Surveys of State Commissions

                        Table 5: Summary of Conditions Reported
                                  By State Commission




    Grant Award         Documentation supporting the selection review process inconsistent
                        and incomplete

                        Conflict of interest forms not maintained

                        Subgrantee selection procedures do not identify data to be provided by
                                                                                                     G13
                        previously funded applicants


Fiscal Administration   Lack of evidence of FSR and matching reconciliation review

                        Lack of procedures to determine the accuracy of information processed
                        through the state's financial system
                                                                                                 1   Fll


    Monitoring          No written procedures for follow-up on deficiencies at subgrantees
                                                                                                 I   M2
                        Monitoring system needs improvement; Site visit documentation
                        missing

                        No requirement for submission of OMB A- 133 audit reports
                                                                                                 1   M9
                        No review of OMB A- 133 audit reports                                    I   MI0

                        Unable to determine if progress reports were received timely

                        Review of progress reports and submission of results to subgrantees
                        not in conformance with Council procedures
                               Office of Inspector General
                             Corporation for National Service
                         Pre-Audit Surveys of State Commissions

                        Table 5 : Summary of Conditions Reported
                                   By State Commission




                        4dequacy of applicants' financial systems not considered in the
   Grant Award
                        $electionprocess

                        Documentation in support of grantee application rejections not
                        available for review

Fiscal Administration   FSRs submitted untimely or unable to determine submissions date

                        All required FSRs were not maintained and lor portions missing from
                                                                                                      F3
                        others

                        Lack of evidence of FSR and matching reconciliation review                    F4

                        Inadequate documentation supporting expenditures missing, i.e.
                        administrative grant expenses, unable to determine how amounts
                        charged were derived

                        Lack of procedures to determine the accuracy of information processed
                        through the state's financial systems
                        Lack of comprehensive formal policies and procedures with fiscal
                                                                                                      F13
                        agent, DCCWD

                        Inadequate disbursement of funds to subgrantees, i.e. on a pro rata           F20
                        basis instead of on a reimbursement or proximate need basis

                        Inadequate procedures in place to ensure timely drawdown of Federal
                        funds
                                                                                                  1   P21


     Monitoring         Lack of timely communication and follow-up on deficiencies found
                        during site visits
     Site Visits
                        Monitoring system needs improvement; Site visit documentation
                        missing

                        No review of OMB A- 133 audit reports                                         MI0

                        Composition of the board of commissioner does not appear to be                01
        Other
                        representative of the population of the state of Oregon

                        Staff levels may be inadequate to perform all required duties beginning
                        July 1,2000
                              Office of Inspector General
                            Corporation for National Service
                        Pre-Audit Surveys of State Commissions

                        Table 5: Summary of Conditions Reported
                                  By State Commission




Fiscal Administration   FSRs submitted untimely or late or unable to determine submission          F2
                        date


    Monitoring          No written procedures to ensure subgrantees correct deficiencies           M4

                        No comprehensive schedule for planned and actual site visits is
                        maintained                                                             1         1
                        No evidence of review of subgrantee financial systems, Member
                        tirnesheets, expense documentation during site visits

                        Subgrantee progress reports not formally verified during site visits       M14


        Other           Staff levels inadequate to perform all required duties                     02
                                Office of Inspector General
                              Corporation for National Service
                          Pre-Audit Surveys of State Commissions

                         Table 5: Summary of Conditions Reported
                                   By State Commission




Fiscal Administration   Lack of evidence of FSR and matching reconciliation review
                                                                                        I   F4

                        Learn and Serve FSRs prepared on a cash basis                       F8


     Monitoring         Monitoring system needs improvement; Site visit documentation
                                                                                            M6
                        missing

                        Procedures to select Members for testing not documented
                                                                                        1   M2O
                              Office of Inspector General
                            Corporation for National Service
                        Pre-Audit Surveys of State Commissions

                       Table 5: Summary of Conditions Reported
                                 By State Commission




                       Documentation in support of grantee application rejections not
   Grant Award
                       available for review

                       Financial Status Reports submitted untimely or unable to determine
Fiscal Admmistration
                       submission date

                       All required FSRs were not maintained andlor portions missing from
                       others

                       Lack of evidence of FSR and matching reconciliation review           F4

                       Monitoring system needs improvement; Site visit documentation        M6
    Monitoring
                       missing
    Site Visits
                       No evidence of review of subgrantee financial systems, member
                       timesheets, expense documentation during site visits
                                     Office of Inspector General
                                   Corporation for National Service
                               Pre-Audit Surveys of State Commissions

                              Table 5: Summary of Conditions Reported
                                        By State Commission




1   Grant Award Process     I Conflict of interest forms not maintained                           1   G9   1
    Fiscal Administration
                             All required FSRs were not maintained andlor portions missing from
                             others                                                               I   F3   I
                               Office of Inspector General
                             Corporation for National Service
                         Pre-Audit Surveys of State Commissions

                        Table 5: Summary of Conditions Reported
                                  By State Commission




    Grant Award         Inadequate documentation to support subgrantee selection process

                        Adequacy of applicants' financial systems not considered in the
                        selection process

                        Conflict of interest forms not maintained                            G9

                        Financial Status Reports submitted untimely or unable to determine
Fiscal Administration                                                                        F2
                        submission date

                        No written procedures for review of matching requirements

    Monitoring          No comprehensive schedule for planned and actual site visits is
                                                                                             M5
    Site Visits         maintained
                                   Office of Inspector General
                                 Corporation for National Service
                             Pre-Audit Surveys of State Commissions

                            Table 5: Summary of Conditions Reported
                                      By State Commission




                            Adequacy of applicants' financial systems not considered in the
    Grant Award             selection process

Fiscal Administration

                        I
                            Financial Status Reports submitted untimely or unable to determine
                            submission date                                                         I   F2    I
                            Inadequate written procedures for review of matching requirements
                                                                                                    1   F6    I
                        /   Documentation supporting expenditures inadequate
                                                                                                    I   F1O   I
                            Lack of procedures to determine the accuracy of information processed
                            through the states' financial systems

                            Funds not tracked using budget line items                                   F12




                        I
                            Inadequate authority to WBRS. All users were granted "Executive
                            Director" access authority
                                                                                                    i   F15   I
                            Lack of control procedures over maintenance of equipment purchases
                                                                                                    1   F16   I
                            No evidence of review of subgrantee financial systems, member
     Monitoring                                                                                         M8
     Site Visits            timesheets, expense documentation during site visits

                            Lack of documentation of review of subgrantee OMB A- 133 or other           M13
                            audit reports

                            Subgrantee progress reports not formally verified during site visits        M14
                             Office of Inspector General
                           Corporation for National Service
                       Pre-Audit Surveys of State Commissions

                      Table 5: Summary of Conditions Reported
                                By State Commission




                      Conflict of interest forms not maintained
Grant Award Process
                      Documentation in support of grantee application rejections not
                      available for review

    Monitoring        Lack of timely communication and follow-up on deficiencies found
                      during site visits; Follow-up results not documented

                      Sample size determination not documented
                              Office of Inspector General
                            Corporation for National Service
                        Pre-Audit Surveys of State Commissions

                        Table 5: Summary of Conditions Reported
                                  By State Commission




                        Documentation supporting grant making decisions not available in all
Grant Award Process
                        cases

Fiscal Administration   No support for review of subgrantee FSRs and no comparison of FSRs
                                                                                                   F1
                        to accounting systems andlor documentation during site visits

                        FSRs submitted untimely or late and unable to determine submission
                        date                                                                   1   F2

                        All required FSRs were not maintained and portions missing from
                                                                                                   F3
                        others

     Monitoring         Monitoring system needs improvement; Information excluded from
                        site visit documentation

                        Lack of documentation of review of subgrantee OMB A- 133 or other
                        audit reports
                                   Office of Inspector General
                                 Corporation for National Service
                             Pre-Audit Surveys of State Commissions

                            Table 5: Summary of Conditions Reported
                                      By State Commission




Fiscal Administration
                        1   FSRs submitted untimely or late or unable to determine submission
                            date

    Monitoring              Not all subgrantee OMB A- 133 audit reports were obtained             M12

                            No procedures to determine if subgrantees are performing prohibited   M22
                            activities
                               Office of Inspector General
                             Corporation for National Service
                         Pre-Audit Surveys of State Commissions

                        Table 5: Summary of Conditions Reported
                                  By State Commission




Grant Award Process     Documentation supporting grant making decisions not available in all
                        cases

                        Adequacy of applicants' financial systems not considered in the
                        selection process

                        Conflict of interest forms not maintained


Fiscal Administration   FSRs submitted untimely or late or unable to determine submission
                        date

                        All required FSRs were not maintained and/or portions missing from
                        others

                        Lack of evidence of FSR and matching reconciliation review
                        ---




     Monitoring         Monitoring system needs improvement; Site visit documentation
                        missing

                        Lack of documentation of review of subgrantee OMB A- 133 or other
                        reports
                               Office of Inspector General
                             Corporation for National Service
                         Pre-Audit Surveys of State Commissions

                        Table 5 : Summary of Conditions Reported
                                   By State Commission




Grant Award Process     Adequacy of applicants' financial systems not considered in the
                                                                                                 G4
                        selection process

Fiscal Administration   Lack of evidence of FSR and matching reconciliation review               F4

                        Inadequate documentation to support Commission's in-kind match
                        amount
                                                                                             !   F7

     Monitoring         No written procedures for follow-up on deficiencies at subgrantees
                                                                                             1   M2
                        Lack of documentation of review of subgrantee OMB A- 133 or other
                        reports

                        Monitoring checklist not documented for specific Member files and
                                                                                                 M19
                        expense items reviewed


                        Sample size determination not documented
                                       Office of Inspector General
                                     Corporation for National Service
                                 Pre-Audit Surveys of State Commissions

                             Table 6: State Commissions Audited as a Major
                             Program Under Single Audit Act Requirements




Zalifornia                                       1997, 1998 and 1999


Florida                                              June 30, 1996                     June 30, 1997


Maryland                                             June 30,1999


Massachusetts                                  June 30, 1995, 1996, 1997,
                                                     1998and1999


Michigan                                          September 30, 1998


Nevada                                               June 30,2000


New Hampshire                                        June 30, 1998


New Mexico                                           June 30, 1998


Oregon                                               June 30,1999


Rhode Island
  AmeriCorps                                                                September 30, 1995, 1996, 1997, 1998
   Learn and Serve and Administration Grants                                    September 30, 1995 and 1996

South Carolina                                       June 30,1998


Washington                                           June 30, 1998
                                                                        Appendix A
                                                                         Page 1 of 2

                          Schedule Of
          OIG State Commission Pre-Audit Survey Reports

                                                              OIG
                                                             Report
                  Commission                                 Number

Alaska State Community Service Commission                     00-24

Alabama State Commission On National And Community Service    0 1-20

California Commission Improving Life Through Service          01-18

Colorado Governor's Commission On Community Service           01-25

Connecticut Commission On National And Community Service      0 1-21

Delaware Community Service Commission                         00-06

Florida Commission On Community Service                       00-30

Idaho Commission For National And Community Service           00-28

Illinois Commission on Community Service                      00-32

Iowa Commission on Volunteer Service                          00-07

Kansas Commission On National And Community Service           00-33

Kentucky Commission on Community Volunteerism and Service     00-1 1

Maine Commission For Community Service                        01-19

Maryland Governor's Office On Service And Volunteerism        01-16

Massachusetts Service Alliance                                0 1-24

Michigan Community Service Commission                         00-25

Minnesota Commission On National And Community Service        00-3 1

Mississippi Commission For Volunteer Service                  01-15

Missouri Community Service Commission                         00- 17

Nevada Commission For National And Community Service          0 1- 17

New Hampshire Commission On National And Community Service    00-19
                                                                                     Appendix A
                                                                                     Page 2 of 2

                                  Schedule Of
                  OIG State Commission Pre-Audit Survey Reports


                                                                                      OIG
                                                                                    Report
                          Commission                                                Number

     New Jersey Commission On National And Community Service                         00-26

     New Mexico Commission For Community Volunteerism                                00-34

      North Carolina Commission On Volunteerism And Community Service                00-08

      Ohio Governor's Community Service Council                                      00-15

      Oregon Community Service Commission                                            0 1-03

      Pennsylvania Commission On National And Community Service                      00-14

      Rhode Island Service Alliance: A Commission for National And                   00-27
       Community Service

      South Carolina Commission on National And Community Service                    0 1-22

      Texas Commission On Volunteerism And Community Service                         0 1-23

      Tennessee Commission On National And Community Service                         00-09

      Vermont Commission On National And Community Service                           0 1-26

      Virginia Commission On National And Community Service                          00-18

      Washington Commission On National And Community Service                        00- 10

      West Virginia Commission On National And Community Service                     00-16

      Wisconsin National And Community Service Board                                 00-29

      Wyoming Commission For National And Community Service                          00-35


The tables and statistics for this report were compiled from the 37 pre-audit survey reports listed
above.
                                                                                       Appendix B
                                                                                       Page 1 of 4
                                 State Commission
                                 Pre-Audit Surveys
                         Objectives, Scope and Methodology


Objectives, Scope, and Methodology

The purpose of the Office of Inspector General's pre-audit surveys of the individual state
commissions is to provide a preliminary assessment of their systems and procedures for
administering their ArneriCorps and other CNS funding. The procedures are less in scope than an
audit and are intended to provide for a preliminary assessment of:

        the adequacy of the pre-award selection process;
        the fiscal procedures at the commission; and
        the effectiveness of monitoring of subgrantees, including ArneriCorps Member activities and
        service hours.

The results of the surveys aid OIG in determining future audit work to be performed at each
commission.

The surveys include the following procedures:

        reviewing applicable laws, regulations, grant provisions, the Corporation guidance, including
        its State Administrative Standards Tool, and other information to gain an understanding of
        legal, statutory and programmatic requirements;

        reviewing OMB Circular A-133 reports and current program year grant agreements for the
        commission;

        obtaining information from commission management to complete flowcharts documenting
        the hierarchy of CNS grant funding for program years 1995 through 99; and

        performing the procedures detailed below over the commission's internal controls, selection
        of subgrantees, administration of grant funds, and the evaluation and monitoring of grants.

Each commission's internal controls are documented and tested using inquiries, observations, and
examination of a limited sample of source documents. The results of our work are summarized to
develop the findings and recommendations for each commission.

Although the work performed does not constitute an audit, the procedures, described herein, are
performed in accordance with Government Auditing Standards issued by the Comptroller General
of the United States. We provide drafts of each report to the individual commission and to the
Corporation for comment and include their responses in the final report.
                                                                                         Appendix B
                                                                                         Page 2 of 4
                                 State Commission
                                 Pre-Audit Surveys
                         Objectives, Scope and Methodology



Objective and the Procedures Performed for Each Area


Internal Controls

Our objective is to make a preliminary assessment of the adequacy of the commission's financial
systems and documentation maintained by the commission to provide reasonable assurance that
transactions are properly recorded and accounted for to: (1) permit the preparation of reliable
financial statements and Federal reports; (2) maintain accountability over assets; and (3) demonstrate
compliance with laws, regulations, and other compliance requirements.

In order to achieve the above objective, we identify the compliance requirements with a direct and
material effect on the commission's AmeriCorps and other grant program, as follows: activities
allowed or unallowed and allowable costs; cash management; eligibility; matching; period of
availability of Corporation funds; and reporting by the commission to the Corporation. We then
interview key commission personnel to assess the commission's controls surrounding these
requirements.


Selecting Subgrantees

Our objectives are to make a preliminary assessment:

        of the adequacy of the systems and controls utilized by the commission to select national
        service subgrantees to be included in an application to the Corporation;

        as to whether the commission evaluated the adequacy of potential subgrantee financial
        systems and controls in place to administer a Federal grant program prior to making the
        award to the subgrantees; and

        as to whether commission involvement in the application process involved any actual or
        apparent conflict of interest.

In order to achieve the above objectives, we interview key commission management and document
procedures performed by the commission during the pre-award financial and programmatic risk
assessment of potential subgrantees. We also review documentation to determine if conflict of
interest forms for each subgrantee applicant tested were signed by selection officials annually and
maintained by the commission.
                                                                                       Appendix B
                                                                                       Page 3 of 4
                                 State Commission
                                 Pre-Audit Surveys
                         Objectives, Scope and Methodology


Administering the Grant Funds

Our objectives are to:

        make a preliminary assessment of the adequacy of the systems and controls utilized by the
        commission to oversee and monitor the performance and progress of funded subgrantees;

        make a preliminary assessment as to whether the commission's organizational structure and
        staffing level and skill mix are conducive to effective grant administration and whether the
        commission has a properly constituted membership;

        make a preliminary assessment as to whether the commission provided adequate guidance
        to subgrantees related to maintenance of financial systems, records, supporting
        documentation, and reporting of subgrantee activity;

        make a preliminary assessment of the adequacy of financial systems and documentation
        maintained by the commission to support oversight of subgrantees and required reporting
        to the Corporation (including Financial Status Reports, enrollment forms and exit forms);
        and

        determine whether the commission has procedures in place to verify the accuracy and
        timeliness of reports submitted by the subgrantees.

In order to achieve the above objectives, we review Financial Status Reports submitted by
subgrantees, as well as Financial Status Reports submitted by the commission to the Corporation, to
preliminarily assess the accuracy of submitted Financial Status Reports.


Evaluating and Monitoring Grants

Our objectives are to:

        make a preliminary assessment of the adequacy of the systems and controls utilized by the
        commission, in conjunction with the Corporation, to implement a comprehensive, non-
        duplicative evaluation and monitoring process for their subgrantees;

         determine whether the commission has an established subgrantee site visit program in place
         and make a preliminary assessment of the effectiveness of its design in achieving monitoring
         objectives;
                                                                                      Appendix B
                                                                                      Page 4 of 4
                                State Commission
                                Pre-Audit Surveys
                        Objectives, Scope and Methodology


       make a preliminary assessment of the adequacy of the commission's procedures used to
       assess subgrantee compliance with Corporation regulations (e.g., those governing eligibility
       of Members, service hour reporting, prohibited activities, payment of living allowances to
       Members and allowability of costs incurred and claimed under the grants by subgrantees
       (including reported match));

        make a preliminary assessment of the adequacy of the commission's procedures for
        obtaining, reviewing and following up on findings included in the subgrantee OMB Circular
        A-133 audit reports, where applicable;

        determine whether program goals are established and results are reported and compared to
        these goals; and

        make a preliminary assessment of the adequacy of the procedures in place to evaluate
        whether subgrantees are achieving their intended purpose.

In order to achieve the above objectives, we document the procedures performed by the commission
to evaluate and monitor individual subgrantees. In addition, we judgmentally select subgrantees and
obtain the commission's documentation for site visits. We review the documentation to
preliminarily assess the adequacy of the procedures performed by the commission to assess financial
and programmatic compliance and related controls at the sites. We also determine whether the
commission receives and reviews OMB Circular A-133 audit reports from subgrantees.
                                                                                                                 Appendix C
                                                               CORPORATION                                       Page 1 of 4
                                                               FOR N A T I O N A L
                                                                 SERVICE


       DATE:                 July 18,2001

       TO:                   Luke Jordan, Inspector General

       THRU:                 William Anderson, Deputy Chie

       FROM:                 Peter Heinaru, Acting Director, ArneriCorps St

       SUBJECT:              Comments on June 18 draft of OIG Report 01-41, Summary of 3 7 State
                             Commission Pre-Audit Survey Reports


               Thank you for the opportunity to comment on the draft summarizing the results of
       37 Office of the Inspector General (OIG) pre-audit survey reports on governor-appointed
       State Commissions on national service. We are pleased that the survey reports confirm
       the Corporation's position that the State Commissions have shown considerable
       improvement in their administration of Corporation grants and are continuing to work
       diligently to make improvements in their administrative management.

               We note that the pre-audit surveys generally covered the State Commissions'
       operations during the period 1994 through 1999. This time frame includes the initial
       start-up of the Commissions and their first years administering a new and complex
       Federal program. Given these circumstances, the OIG's findings that the Commissions
       could not always provide sufficient documentation of actions taken to administer and
       monitor the program for all years surveyed are not unusual or wholly unexpected.

                In addition, the individual reports issued by the OIG for the most part addressed
       areas where the State Commission needed to improve operations. Areas where
       operations were running well do not get specifically discussed in the reports or in this
       summary, nor are they covered to the same degree as areas needing improvement. This
       reporting style is the one predominantly used by auditors, and understandably so. But the
       downside of this is that when the information is consolidated, as it is for this summary
       report, the reader is left with the impression that the findings are reflective of the entire
       review. That is not the case. When considered in their entirety, the State Commissions
       are performing their roles and responsibilities in a far more exemplary manner than is
       described in this summary. The Corporation hopes that the reader will keep this in mind
       as shehe forms an overall assessment of the Commissions. The Corporation and
       individual State Commissions welcome this oversight and look forward to the
       opportunity to share their overall management and programming impact with interested
       parties.




NATIONAL SERVICE: GEllING THINGS DONE                                          1201 New York Avenue, N.W. Washington, D.C. 20525
AmeriCorps   Learn and .Yerue America   l'VationalSenior Service Corps         telephone: 202-606-5000 website: mnalionalsenice.org
                                                                                  Appendix C
                                                                                  Page 2 of 4
        We continue to work with the Commissions to ensure that the Commissions
adequately document their activities. To facilitate these efforts, we suggest that future
summaries prepared by the OIG differentiate between significant and less significant
findings. For example, the tables in the report appear to give equal weight to instances
where FSRs are not submitted at all versus where they are a week late. The Corporation
does not want to be misinterpreted as condoning late submission of a report, nonetheless,
reports are at times submitted late, or they may not be logged in immediately upon
receipt. This is a relatively minor matter that can be corrected with greater management
attention, but it is not a reflection of a significant financial weakness.

         The tables also do not clearly identify findings occurring during the start-up
period for a State Commission that were subsequently corrected and those that the
Commission has not begun to address. The reader of this report needs to be able to
understand what the findings are and to be able to assess their overall impact. Thus, the
Corporation believes that a simple review of numbers and counts, without proper context,
is not the most effective way to analyze the information and make policy determinations.
Making these types of distinctions in the reports would better enable the Corporation and
the Commissions to concentrate our limited resources on those items that will provide the
most benefit.

        The summary report also makes several broad representations that we believe
deserve further discussion. First, the summary report indicates the Corporation lacks a
management information system that maintains comprehensive information on its grants,
including those to State Commissions and their subgrantees. We disagree with this
statement. While the Corporation currently does not have one system, it does have
systems that maintain comprehensive information on grants. First and foremost is the
National Trust Database, which maintains information on members enrolled in national
service positions. Supporting the Trust database is the web-based reporting system
(WBRS) that maintains comprehensive information on the members, grant objectives,
and programmatic and financial reporting of ArneriCorps grantees. Finally, the
Corporation operates Grantsbase, which includes information on grants to State
Commissions. Taken together, these systems provide a comprehensive picture of the
Corporation's grant programs.

        That said, the Corporation does agree that the systems can be improved. In fiscal
2001, the Corporation received funds to replace Grantsbase with a new web-based system
that will perform all aspects of grant-making - from submission of grant applications to
grant closeout. While development of this system is underway, the Corporation
continues to rely on the more limited system capabilities of Grantsbase. The Corporation
acknowledges that the new grants system will do far more than the current Grantsbase.

        Secondly, the Corporation disagrees with the OIGYsconclusion that it "has not,
and refuses to issue basic guidelines that establish minimum requirements for monitoring
or to require the use of monitoring checklists in a structured manner." In fact, the
Corporation has several processes and requirements in place to ensure State Commissions
monitor sub-grantees appropriately. First, the Corporation's grant provisions require
                                                                                   Appendix C
                                                                                   Page 3 of 4
State Commissions to use the OMB Circulars common across the grant programs of the
Federal government for administering and monitoring their sub-grantees (specifically
OMB Circulars A-2 1; A-87, A- 102; A- 110; A- 122; and A-1 33). These circulars provide
guidance to assure that Federal funds are used in compliance with applicable Federal
statutory and regulatory provisions and costs are reasonable and necessary for operating
the programs.

        It is worth noting that the OMB Circulars, and their associated government-wide
common rules, specifically provide guidance to pass-through entities (e.g., State
Commissions) on monitoring subgrantees. In particular, OMB Circular A- 133 states that
"factors such as size of the award, percentage of total program's funds, complexity of the
compliance requirements may influence the extent of monitoring procedures." The
Circular goes on to state that "Monitoring activities may take various forms, such as
reviewing reports submitted by the sub-recipient, performing site visits to the sub-
recipient to review financial and programmatic records and observe operations, arranging
for agreed-upon procedures for certain aspects of sub-recipient activities, such as
eligibility requirements, reviewing the results of single or program-specific audits." This
is the approach taken by the Corporation.

       Moreover, at the end of 1999, the Corporation developed the State Administrative
Standards for Commissions. The Standards set the minimum requirements for the
controls and systems State Commissions must have in place to administer Corporation
grants. In three specific standards, the Corporation further delineates the State
Commission's monitoring responsibilities related to sub-grantees. These standards
indicate that, among other strategies, the Commissions must employ a risk-based
monitoring strategy, conduct monitoring site visits to sub-grantees, provide feedback
from site visits and assure that sub-grantees remedy deficiencies within appropriate
timefiames.

        OMB approved the Corporation's initiative to establish additional administrative
standards and to perform reviews of State Commissions based on the standards. To date,
the Corporation has reviewed 25 State Commissions, with reports on the results issued
for 17. These reviews identify areas where Commissions are meeting standards and
areas where work needs to be done. Each State Commission develops a plan to remedy
deficiencies found during the standards review and works closely with its Corporation
program officer to fulfill the requirements of the standards. With completion of the
reviews scheduled for fiscal 2001,29 Commissions will have been reviewed (and 27
reports issued).

        Together with the OMB Circulars, the Corporation believes that the State
Administrative Standards provide a solid foundation for the administration of its grant
programs while allowing the Commissions the flexibility to efficiently carry out the
program consistent with the differing needs of each State. The summary report
characterizes these requirements as an "unstructured approach" leading to "differing
levels of monitoring." However, State Commissions are as a general rule, State
government instrumentalities. The Corporation expects that each State Commission's
                                                                                       Appendix C
                                                                                       ?age 4 of 4
monitoring program will be tailored to its specific needs and State government
requirements while meeting the minimum requirements specified in the OMB Circulars
and the State Administrative Standards. Inherently, this will lead to different
methodologies and monitoring procedures by State Commissions. However, this
approach is wholly consistent with the principle of regulatory federalism imbedded in the
OMB Circulars. This principle provides that to the maximum extent permitted by law,
State agencies are to be given the flexibility and responsibility to develop and apply their
own rules. Adhering to this principle may indeed result in differing procedures by State
agencies, which the OIG describes as "erratic," however, they are fundamental tenets of
government policies. For this reason, the Corporation believes that the policies that have
already been issued are adequate.

       Finally, the Corporation has made specific responses to each of the pre-award
surveys issued by the OIG, which include the corrective actions that are being
immediately addressed with State Commissions. More than half of the Commissions
have had a State Administrative Standards review with the remainder planned for next
year. The remaining pre-audit surveys for which the Corporation has not developed
responses and corrective actions are recent and being addressed as issued. The
Corporation has taken initiatives to assure better management by Commissions, address
pre-audit survey findings, and assure appropriate corrective actions are taken.

        The Corporation has taken this approach in responding to this summary report,
not to refute the findings of the auditors, but rather to help readers put the information in
a broader perspective. The individual pre-audit surveys are helpful to the Corporation
and to the individual State Commissions. They identify areas where improvements can
be made, but they are only one side of the story. Areas in which grantees are performing
well are simply not given the same level of attention, as are areas where improvements
can be made. If this fact is kept in mind, then the reader can be best informed on
Commission operations.

cc:     Wendy Zenker
        Peg Rosenberry
                                                                                 Appendix D
                                                                                  Page 1 of 4

                      OIG Comments on Specific Items Noted in
                 the Corporation's Response to this Summary Report


On page 2 of the Summary Report, we noted that 25 commissions had initiated
improvements in recent years. In its response, the Corporation correctly notes that the
surveys generally covered the State Commissions' operations during the period 1994
through 1999. The Corporation observes that "(t)his time frame includes the initial start-
up of the Commissions and their first years administering a new and complex Federal
program" and that "(g)iven these circumstances, the OIGYsfindings that the Commissions
could not always provide sufficient documentation of actions to administer and monitor
the program for all years surveyed are not unusual or wholly unexpected." The
Corporation, by that statement, is arguing the untenable position that the first and critical
five year period during which substantial Federal funds were expended are somehow
exempt from accountability and/or during that period, the Commissions should not have
been required to comply with grant provisions and Federal regulations to which they
agreed when receiving the grants. We disagree. A thorough search of the Corporation's
grant provisions and applicable Federal regulations failed to produce any evidence of a
policy whereby grant provisions or Federal regulations are waived during an initial start-
up period for grant performance. In any event, a five year start-up period would be
excessive.
                                           * * *
On page 2 of its response, the Corporation makes the following statement:

    "For example, the tables in the report appear to give equal weight to instances
    where FSRs are not submitted at all versus where they are a week late. The
    Corporation does not want to be misinterpreted as condoning late submission of
    a report, nonetheless, reports are at times submitted late, or they may not be
    logged in immediately upon receipt. This is a relatively minor matter that can
    be corrected with greater management attention, but it is not a reflection of a
    significant financial weakness."

We have several issues with this statement. First, the finding cited in the report related
to submission of Financial Status Reports (Finding F2) was uniformly presented as
"FSRs submitted untimely or unable to determine submission date.'' We are unable to
determine how the Corporation concluded that the report gave equal weight to instances
where FSRs are not submitted at all versus where they are a week late. Second, the
Corporation's statement is another example of the Corporation brushing aside
shortcomings of the commissions. A careful reading of the Corporation's statement
discloses discussion of FSRs that are submitted late or not logged in immediately upon
receipt. The Corporation fails, however, to discuss instances where FSRs are not
submitted at all.
                                           * * *
                                                                               Appendix D
                                                                               Page 2 of 4
The Corporation, also on page 2 of its response, makes the following statement:

    "The tables do not clearly identify findings occurring during the start-up period
    for a State Commission that were subsequently corrected and those that the
    Commission has not begun to address. The reader of this report needs to be able
    to understand what the findings are and to be able to assess their overall impact.
    Thus, the Corporation believes that a simple review of numbers and counts,
    without proper context, is not the most effective way to analyze the information
    and make policy determinations. Making these types of distinctions in the
    reports would better enable the Corporation and the Commissions to concentrate
    our limited resources on those items that will provide the most benefit."

Our report, as discussed earlier, acknowledges improvements the commissions initiated
in recent years. These improvements, however, do not eradicate the shortcomings of the
commissions before the new policies went into effect. These shortcomings have been
presented because, notwithstanding improvements made by the commissions, they must
be addressed and considered in planning and performing our audits of Federal funds.
Our audit work (both pre-audit surveys and full-scope audits) completed thus far, of
Corporation awards to state commissions have shown that the commission's
shortcomings in earlier years can lead to significant questioned costs.

Moreover, as far as distinguishing the years for which the findings are applicable, we
have provided this information and a great deal more to the Corporation in the individual
pre-audit survey reports and also provided many recommendations to the Corporation
and the commissions for corrective actions and management improvements. The purpose
of this Summary Report was to combine the information in a way to provide the reader
with a broad general overview of the issues and the common themes that the surveys
have revealed. If the reader desires more detailed information, then the individual reports
listed in Appendix A can be obtained from CNS OIG.



The Corporation disagrees with the report's inference that the Corporation lacks a
management information system that maintains comprehensive information on its grants,
including those to state commissions and their subgrantees. The Corporation cites as
"first and foremost" the National Trust Database. The National Trust Database contains
data related to enrolled AmeriCorps Members and their reported earned educational
awards. It contains no information related to the financial or programmatic performance
of awards to state commissions and, ultimately, to their subgrantees. As such, the
National Trust Database cannot be characterized as containing comprehensive
information on grants.
                                          ***
The Corporation also disagrees with the report's conclusion that the Corporation "has not
and refuses to issue basic guidelines that establish minimum requirements for monitoring
or to require the use of monitoring checklists in a structured manner." The Corporation's
                                                                                           Appendix D
                                                                                            Page 3 of 4

position is that its "grant provisions require State Commissions to use the OMB Circulars
common across the grant programs of the Federal government for administering and
monitoring their subgrantees (specifically OMB Circulars A-21; A-87; A-102; A-1 10; A-
122; and A-133)" and that "(t)hese Circulars provide guidance to assure that Federal
funds are used in compliance with applicable Federal statutory and regulatory provisions
and costs are reasonable and necessary for operating the programs."

We acknowledge that the Corporation's awards to the state commissions incorporate, at
least by reference, the cited OMB Circulars. To suggest that the inclusion of these
provisions in awards assures "that Federal funds are used in compliance with applicable
Federal statutory and regulatory provisions and costs are reasonable and necessary for
operating the programs" is, at best, disingenuous, and is inconsistent with the fact that the
Corporation itself has sustained amounts questioned in audit reports arising from
noncompliance with the cited OMB Circulars and grant provisions. Simply put, the
inclusion of these references in awards does not, in any way, guarantee that grantees are
actually following or enforcing them.

The Corporation states that OMB Circulars, and their associated common rules,
specifically provide guidance to pass-through entities on monitoring subgrantees. The
Corporation observes that OMB Circular A-133 states that "factors such as size of the
award, percentage of total program's funds, complexity of the compliance requirements
may influence the extent of monitoring procedures." The Corporation notes that the
Circular also states that "Monitoring activities may take various forms, such as reviewing
reports submitted by the sub-recipient, performing site visits to the sub-recipient to
review financial and programmatic records and observe operations, arranging for agreed-
upon procedures for certain aspects of sub-recipient activities, such as eligibility
requirements, reviewing the results of single or program-specific audits." The
Corporation states that this is the approach taken by the Corporation, and presents these
excerpts from OMB Circular A-133 as justification for refusing to issue basic guidelines
that establish minimum requirements for monitoring or to require the use of monitoring
checklists in a structured manner.

We observe, first, that the cited OMB Circular language has been taken out of context.
The Circular, at Subpart D, 5-.400(d)(3)      requires pass-through entities to "(m)onitor
the activities of subrecipients as necessary to ensure that Federal awards are used for
authorized purposes in compliance with laws, regulations, and the provisions of contract
or grant agreements and that perfomance goals are achieved'." The Corporation's
guidance, or the lack thereof, permits the state commissions to monitor their subgrantees
in any manner and to any degree that the individual state commission might feel
appropriate without establishing a rationale supporting the monitoring employed. The
state commissions would be more capable of performing effective and consistent
oversight and monitoring of subgrantees if the Corporation provided at least a base-level

1
   It is interesting to note that this provision of OMB Circular A-133 does not assume, as does the
Corporation, that the inclusion of specific terms and conditions and administrative requirements and cost
principles contained in other OMB Circulars, in the award document, assures compliance with their
requirements.
                                                                               Appendix D
                                                                                Page 4 of 4

of policy guidance on specifically when and how such oversight should occur. Such an
approach would also provide greater assurance to the Corporation that the commissions
comply with the cited OMB Circular requirement.

Second, the citation of "factors such as.. .. complexity of the compliance requirements
may influence the extent of monitoring procedures" and "(m)onitoring activities may take
various forms.. ." is also taken out of context. OMB Circular A-133 applies to virtually
all Federal grant programs, an extremely diverse universe. Hence, the Circular's authors
had a need to provide flexibility. In contrast, compliance requirements that the
Corporation may impose on the state commissions would be uniform. Compliance
monitoring activities by state commissions should be generally consistent across the
country and reflect at least a baseline of essential steps and requirements that the
Corporation identifies. Policies set forth in OMB and other grant-related publications
should be tailored to fit the circumstances that state commissions are likely to encounter.

Finally, the Corporation asserts that the State Administrative standards provide sufficient
guidance. However, the standards, that were provide to OIG when they were issued in
1999, do not contain substantive guidelines. They describe basic goals; for instance,
"Properly monitors Programs and Ensures Compliance." Then for such an overarching
goal, list attributes such as "Has and employs a risk-based monitoring strategy" and
"Conducts monitoring site visits to Corporation subgrantees" followed by a series of
questions about whether or not a state commission has these attributes, and if not, where
it stands as far as achieving compliance. We are not aware of other materials related to
these administrative standards that clearly set forth the Corporation's expectations as to
what constitutes proper monitoring or a baseline as to what should be done during a site
visit or when site visits are expectedlrequired.
